Of#
No.

K

oj
IN THE

him\

SUPREME COURT OF THE UNITED STATES fl * SV

r

WiLBeslkf IkI6£$>A#oS Qp&p&C^

ABM

— PETITIONER

(Your Name)

vs.
UtittiS CflAf>MJbJ tiJMkilg/J

£:T &L

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
MAR 0 5 2021
■SUPRE^E^QUR^ns^

UfJtte-P

Ccy&J £>F4tfpmt£

/prsn-irke.

ttlLc<Ji Y

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

\kliU&lAf UOQPtL0tjJ Coop**—
(Your Name)

'-Tcut/Ato <L&<tn&cJ L<SY\<lL
3X2.$ J oh a/ Cd^SLe.y QtL\ \J&
(Address)

LApejejl,M,i
(City, State, Zip Code)

Phone Number)

QUESTION(S) PRESENTED
Would the Supreme Court of the United States disregard a Due Process Clause
of the Fourteenth Amendment violation that the sixth circui.t court had
relinquished well established constitutional lav? that would protect a
citizen's constitutional rights and resolve violation that were intentionally
committed by the State Agents, that now seek relief through deference
allowances to avoid a citizens redress. The State Govt, deems it is to
arduous to convict without valid evidence and had surrender review to the
sixth circuit court, conceding their claims against the petitioner.

Why would the sixth circuit court penalized a citizen that had attempted to
safe guard his well established constitutional rights and allow a Due Process
clause of the Fourteenth Amendment violation by deeming the citizens’s method
to maintain his rights is evaluated as suspicious behavior and determining
equivalent to circumstantial evidence to out weigh and dismiss the facts of
physical evidence which concludes innocence as a method of removable of the
sufficiency of evidential evaluation. Tnereby to give the state the
deference to their surrender claim of the review of merit, has caused injury
and prejudice to the petitioner; the charge offense against the petitioner
had been totally devoid of evidentiary support as to render his conviction
unconstitutional under the due process clause of the fourteenth amendment.

Would the Supreme Court of the United States disregard whether or not the
question is upon the sufficiency of the evidence but on the whether this
conviction rest upon any evidence at all. That by given deference to the
state is disregarding the Constitutional Rights violation suffer by the
petitioner and his lost of liberty is dismissed as a arduous task to be
performed by the state.

I

Table of Author!tys
Case:
Brecht v Abrahamso 507 U.S. 619 (1993)
Fulminate v Arizona 499 U.S. 279 (1991)
Henddix v Palmer 893 F.3d 906, 919 (2018)
Jackson v Virginia 99 S. ct 2781 (1979)
Miller-El v Cockrell 123 S.ct 1029 (2003)
Moore v Bergnurs 700 F.3d at 889-890 (2012)
O'Neal v Balcarcel 933 F.3d 618,624 (2019)
O'Neal v McAnnish 513 U.S. 432, 436 (1995)
Slack v Mcdaniel 529 U.S. 473. 484-485 (2000)
Tennard v Dretke 124 Sc. 2526 (2004)

Statutes:
28 U.S.C. § 2253 (1) (2) (3)
28 U.S.C § 2254 (b) (A) (d) (1)

Constitutional Amendments
4th
5th.
14th

e f

l I

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

H

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

%

CONCLUSION

INDEX TO APPENDICES
APPENDIX A [AiCki&iW
APPENDIX B

oF

&?PSMS

a/huJtr

umiTFP STiVre*
APPENDIX C Coofct ofM(2&lL5

Of>mm No,l

139(

CifLcoiT - De+Ji(\Lar
- £>ertbQ,Us FFpl-Le^S ^////2o

APPENDIX D

bS5,Co(jp$&C

APPENDIX E

APPENDIX F

• **
t i i

Nl/l&

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix S.
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
fy] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
T or
appears at Appendix A___ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
(XJ is unpublished.
1.

court

JURISDICTION

[((f For cases from federal courts:
The date on which the United States Court of Appeals decided my case
7 f7j 2Q2M
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
ifyj 2.0 2-Q
, and a copy of the
order denying rehearing appears at Appendix Qz___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was M icb fldnl iabriTtf
A copy of that decision appears at Appendix M_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3.

Constitutional And Statutory
Provisions Involved
The fourth Amendment to the United States, provides, in pertinent part; The
right of the people to be secure in their persons, houses... against
unreasonable searches and seizures, shall not be violated and warrants shall
issue but upon probable cause., particularly describing the place to be
search in the persons or things to be seized.
The Fifth Amendment to the united States Constitution provides in pertinent
part:. . nor shall be compelled in any criminal case to be a witnesses against
himself nor be deprived of life Liberty or property without due process of
law.
Ihe Fourteenth Amendment to the United States Constitution provides in
pertinent part: Section number one: No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United
States; no shall any state deprived any person life, liberty, or property
without due process of law; no deny to any person within its jurisdiction the
equal protection of the law.
Statutes: 28 U.S.C.§ 2253 (C) (2) provides:
In order to obtain a certificate of appealability, a petitioner must make a
substantial showing of the denial of a Constitutional Right.
28 U.S.C § 2254 (b) (A) (d) (l): (b) (A), The applicant has exhausted the
remedies available in the courts of the state.
(d) an application for a writ of habeas corpus on behalf of a. person in
custody pursuant to the judgment of the state court shall not be granted with
respect to any claim that was adjudicated on the merits in state court
processings unless the adjudication of the claim-(l) resulted in a decision
that was based on a unreasonable application of clearly established Federal
law, as determined by the Supreme Court of the United States.

3

STATEMENT OF THE CASE
The petitioner was convicted of Hide. Comp. Law ; 750.316 (b), Hay

2011;
then apaalled by right to the Michigan Court of Appeals which had denied the
appeal. Michigan Appellate court stating that the petitioner invocations ware
well accepted but. the review is harmless error to the conviction. The
petitioner sought review in tine Michigan Supreme Court;

this court had
decided that the appeal should be federally reviewed. The United States
District lead denied most of the petition but had revealed that they were
concerned, mat jurist could reasonably conclude a different render decison.
The United States District court reasonably conclude allowed a Certificate of
Appealability (COA) on the thrid contested confessional statement for further
review. Tlie petitioner had been given assigned counsel up to the United
States District court review. The Petitioner had to become Per Se status in
order to further gain the court s review. The sixth circuit court had imposed
a. court jurisdiction in order to authorise the COA and confine for review on
the sole Third interview issues. The petitioner had submitted a Per Se brief
cutting all relevant aspects of this limited inquiry review. The sixth
circuit court had recieved the Per Se brief and then afterwards deem
authority to assign legal counsel to the petitioner Cooper for Oral. Aguements
in lieu of
interest of justice'. Assigned legal counsel had reviewed
petitioners brief and then written a Oral Arguement brief that aligns with
the petitioners position.
The sixth circuit court panel reviewal had
opposing views of Opinion reviewal and the petitioner had sought an En Banc
hearing to have a tail panel review. Tie sixth circuit review panel had
denied further review, each panel side had maintain their opposing opinions
and deemed the review settled. This places the jurisdiction in the United
States Supreme Court by Cert iori application and the petitioner request?
Would the Supreme Court of the United States grant review of a consideration
upon the constitutional rights violations that affect every citizen and
reviews well establish constitutional laws that protect the citizen from
abuses from State Govt, agents? All constitutional rights violations should
nor be ignored, clue to giving deference to State Govt, over their abuses
committed upon the U.S. citizen. This case review affects the constitutional
rights -of all citizens -currently and in the- future.

H

REASON FOR GRANTING TOE PETION

A certificate of appealability may issue ’’only of the applicant has made
a substantial showing of the denial of a Constitutional Right” 28 U.S.C §
2253. This court has held that when a federal district court denies a habeas
claim on procedural grounds without addressing the claim’s merits, a
Certificate of Appealability should issue if it is shown that jurist of
reason would find it debatable whether the petitioner states a valid claim of
a constitutional right, and that jurist of reason would find it debatable
whether the district court was correct in its procedural ruling. Slack v
McDaniel,529 U.S.473,484-485 (2000). "A petitioner satisfies this standard by
demonstrating that ...jurist could conclude the issue presented are adequate
to deserve encouragement to proceed further11.Miller-El v Cockrell,123
S .ct!029(2003). In applying this standard,the court may not conduct a full
merit review, but must limit its examination to a threshold inquiry into the
underlying merit of the petitioner's claims. Id. See also Tennard V Dretke
124S.ct2562 (2004). 28 U.S.C.2253(c) (2) satisfied.
Tne facts and circumstances,arguements below are predicated upon indeed
raises claims which jurist would find debatable, claims that a court could
resolve in a different manner then that reached by the sixth circuit
court,claims which are supported by authoritative court decisions and
factually based on the record of the cases; or at least the claims are
adequate to the extent that they deserve encouragement to proceed further as
reflected in the DISSENT OPINION of the sixth circuit court by J MOORE. The
petitioner claims further upon debatable reasoning that when the sixth
circuit court had penalized the petitioner by erroneously declaring
'Suspicious Behavior' as substantial circumstantial evidence to outweigh
physical evidence that would directly conclude innocence; the sixth circuit
court had declared that a citizen cannot maintain control over their physical
DNA in a safeguarding manner and require the police to seek a valid warrant
to obtain a citizens,non-discarded DNA. A counter-position of the fourth
Amendment provision. See sixth circuit court opinion pages 4-5 is to reflect
that petitioner Cooper was safeguarding his DNA- and the sixth circuit cour
placed high valued upon the Mich. Court of Appeals reference on page 17on
Coopers such action;The jury could have reasonably relied upon Coopers

5

suspicious action issue. This inference inquisition had only been introduced
by the Police at Trial Impeachment process to ensure that Coopers Third
confession statement being introduced to the jury on pages 17-18 within the
sixth circuit opinion.The inferences placed by the Police to ensure
circumstantial evidence and undermining of the Fourth Amendment and the
inadmissible evidence would improperly influence the jury was the primary
foundation of the sixth circuit decision, which finalizes in the summary of
the opinions section III on page 18, and reflects that the petitioners claim
has validation.
Tne sixth circuit court opinion response is that these issues were
disregarded constitutional violations;which were heavily relied upon by the
prosecution and had influential overwhelming the jury; that there is no
substantial and injurious effect or influence in determining the jurys
verdict-0 neal v Barcarcel 933F.3d 618,624(6 cir 2019)(quoting 0 neal v
McAnnish 513U.S.432,436(1995)."an uncertain judge should treat the error not
as if it were harmless, but as if it affected the verdict" cited in Hendrix v
palmer 893 F.3d 906,919(6 cir 2018). The petitioner claims that the sixth
circuit court is not maintaining their latest decisions, or the sixth circuit
court is not in agreement upon the courts rulings or the application usage of
such rulings;this is,the generally of the DISSENT OPINION in which should be
reviewed. The sixth circuit court had inferred to the petitioner that the
Certificate of Appealability had merits for proper review and encouraged the
petitioner to proceed;the court had even unsolictedly had assigned counsel to
the petitioner In presenting Oral Arguements to the court. After court review
of habeas claim, the court then declared that the petitioner had lacked
merits in his claim. This counters the intital actions of encouraging the
petitioner to proceed further granting the COA and the sixth circuit having
assigned legal representation to ensure that the petitioner maintained a
merited review. When the sixth circuit court had denied En Banc review, even
after the court panel had been divided, this presumedly moved jursidiction
into the United States Supreme Court. The sixth circuit panel had deemed that
no other jurist could reasonably debate whether a substantial and injurious
effect had been placed upon the petitioner. Tnere are too numberous case
citation references to cite, that definitely reflect that every appellate
federal court would not be in such agreement and not be favorable to the
petitioner. The sixth circuit had been divided with opposing opinions, and

k)

the sixth circuit dismissed the severity of the error along with substantial
and injurious affect it had on the determiniiive influential factors to the
jurys verdict. The petitioner had passed the Brecht Test 507 U.S. at 637; The
Fulminate test 499U.S .279,296; The Moore comparison test 700F.3d 889-390.
Tnese few case citations would resolve this matter in the petitioners favor,
and all represents the best available explication of the,clearly established
Federal law, as determined by the Supreme Court of the United. States.
Whereas, if the sixth court leans towards favor to the prosecution,there is
equal dominated standards which favor the petitioner,
As described
above,this petition of claim directly effects all U.S. citizenss
constitutional Due Process claims and violations of their well established
and protected rights. By not limiting and easily giving the deference to the
State Govt, is allowing the State to continue to abuse their citizens rights,
eliminating any need for appellate reviewal claims, and the necessity to
prevent overreach from the State Govt.and their agents. The petitioner prays
that this claim merits supervisory overview from the United States' Supreme
Court, and that his claim reflects the necessity to vacate his erroneous
conviction. Jackson v Virginia 99 S.ct 2781(1979),reflects the sufficiency of
evidence, that is most important to measure proof beyond a reasonable doubt
as an essential part of the Fourteenth Amendment Due Process Clause; it
follows that when such a conviction occurs in a State trial, it cannot
constitutionally stand (quoting from Winship supra within Jackson v Virginia.
Thompson v Louisville 80 S.ct 624 reflects that the lack of evidence to
support a conviction;.. .finding that the constitutional claims have merit and
were substantial and not frivolous the conviction cannot stand. Fulminante v
Arizona 499 U.S.279
reflects that the jury should not be improperly
influencing the verdict to arrive at a erroneous conviction. Tne sixth
circuit DISSENT Opinion provides the substantial value and a clear division
which would indicate that jurist of reason could debate, and the Supreme
Court is required to maintain the well established laws, and allow the
petitioner his liberty. It has been onus and arduous only to the petitioner
to strive for justice that the lower courts simply ignored .

7

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
/

Date:

s/j/zozf

%

